No. 20A116

In the Supreme Court of the United States
MIKE BROWN, ACTING-WARDEN, PETITIONER
v.
ERVINE DAVENPORT
ON APPLICATION FOR STAY
PROOF OF SERVICE
The undersigned certifies that on January 21, 2021, she e-served a letter regarding the Application to Stay the Mandate of the United States Court of
Appeals for the Sixth Circuit Pending Decision on the State of Michigan’s
Petition for a Writ of Certiorari by e-filing and e-mailing same to the following
email address:
•

Tasha J. Bahal, Tasha.Bahal@wilmerhale.com

Additionally, the letter will be UPS mailed to the court and counsel of
record today as follows:
Counsel of Record for Respondent:
Tasha J. Bahal
Wilmer Cutler Pickering Hale and Dorr LLP
60 State Street
Boston, MA 02109
617-526-6106
Tasha.Bahal@wilmerhale.com

/s/ Holly Gustafson
Holly Gustafson, Legal Secretary

